OFFICE OF INSPECTOR GENERAL
            Audit Report

Fiscal Year 2011 Financial Statement Audit
         Letter to Management

            Report No. 12-04
            January 31, 2012




RAILROAD RETIREMENT BOARD
                      UNITED STATES RAILROAD RETIREMENT BOARD

                                    OFFICE OF INSPECTOR GENERAL




                                                                                     January 31, 2012


Michael S. Schwartz
Chairman
U.S. Railroad Retirement Board


The purpose of this letter is to transmit a memorandum on internal control
communicating certain matters concerning internal control that came to our
attention during our recent audit of the Railroad Retirement Board’s (RRB)
financial statements.

We have audited the RRB’s general purpose financial statements and issued our
report thereon dated November 8, 2011, except for matters relating to the fair
value of the net assets of the National Railroad Retirement Investment Trust as
of September 30, 2011, as to which the date was November 15, 2011. We
performed our audit in accordance with U.S. generally accepted government
auditing standards and Office of Management and Budget (OMB) audit guidance
as applicable to the scope of our audit. 1 We have not considered internal control
since we obtained sufficient appropriate audit evidence to support the audit
opinion on November 8, 2011; internal control was not among those matters to
which we gave consideration between November 8th and November 15th.

During our audit, we noted certain matters involving the RRB’s internal control
structure and its operation that, individually, did not rise to the level of a
significant deficiency, the details of which are presented in the attached
memorandum. That memorandum also presents the full text of those matters
previously reported as material weaknesses and a significant deficiency in
conjunction with our opinion on the financial statements. However, neither this
letter, nor the attached memorandum, modifies our report dual dated as of
November 8, 2011, and November 15, 2011, referred to above.

Our observations concerning internal control were presented to responsible
agency management who were offered the opportunity to review and comment
on the draft memorandum. Their responses are also attached.




1
 See our report on the RRB’s financial statements for a full description of the scope and
methodology.
844 N RUSH STREET CHICAGO IL 60611-2092                                             Printed on recycled paper
In planning and performing this audit, we considered internal control in order to
determine our auditing procedures for the purpose of issuing our report on the
RRB’s principal financial statements and not to provide assurance on internal
control. The maintenance of adequate internal control designed to fulfill the
RRB’s control objectives is the responsibility of management. Because of
inherent limitations in any system of internal control, errors or irregularities may
nevertheless occur and not be detected. Also, controls found to be functioning at
a point in time may later be found deficient because of the performance of those
responsible for applying them. There can be no assurance that controls currently
in existence will prove to be adequate in the future as changes take place in the
organization.

Our work was not conducted for the primary purpose of making detailed
recommendations about the RRB’s system of internal control. Had we done so,
other matters might have come to our attention that we would have reported to
you.

We wish to express our appreciation for the many courtesies and cooperation
extended to us during the audit.


                                                 Very truly yours,

                                                 …Original signed by …


                                                 Martin J. Dickman
                                                 Inspector General



Attachments

cc: Walter A. Barrows, Labor Member
    Jerome F. Kever, Management Member
    Martha P. Rico, Secretary to the Board
    Karl T. Blank III, General Counsel
    George V. Govan, Chief Financial Officer
    Frank J. Buzzi, Chief Actuary
    John M. Walter, Chief of Accounting, Treasury, and Financial Systems




844 N RUSH STREET CHICAGO IL 60611-2092                              Printed on recycled paper
Letter to Management                                                                                      Page 1
                                 Memorandum on Internal Control

                                    Table of Contents

MATERIAL WEAKNESSES
 Information Technology Security - Risk Management Framework ............... 3

 Information Technology Security - Applications and Services ..................... 3

 Internal Control Over Non-Integrated Subsystems ......................................... 4

 Budgetary Reporting .......................................................................................... 4

       Recommendations ...................................................................................... 4

       Management’s Response ........................................................................... 5



SIGNIFICANT DEFICIENCY
 Railroad Audits ................................................................................................... 5



OTHER MATTERS INVOLVING INTERNAL CONTROL
 RRB Risks Issuing Incorrect Statement of Budgetary Resources and
 Financial Statement Notes ................................................................................. 6

 Social Insurance Requirements ........................................................................ 7

       Recommendation ........................................................................................ 7

       Management’s Response ........................................................................... 7

 Quality Assurance Steps and Checklists for Social Insurance ..................... 8

       Recommendations ...................................................................................... 8

       Management’s Response ........................................................................... 8
Letter to Management                                                                                Page 2
                               Memorandum on Internal Control

 BFO’s Responsibility for Data Received from Other Bureaus ....................... 9

       Recommendation ........................................................................................ 9

       Management’s Response ........................................................................... 9



APPENDICES
 Appendix I - Errors in the Statement of Budgetary Resources and the
 Financial Statement Notes ............................................................................... 10

 Appendix II - Status of Prior and Current Year Recommendations ............. 12

 Appendix III - Management’s Response - Bureau of Fiscal Operations...... 13

 Appendix IV - Management’s Response - Bureau of the Actuary................ 15
    Letter to Management                                                                  Page 3
                             Memorandum on Internal Control

MATERIAL WEAKNESSES

In conjunction with the Office of Inspector General’s (OIG) opinion on the RRB’s
financial statements for the fiscal years (FY) ended September 30, 2011 and
2010, we reported the following material weaknesses. 1

Information Technology Security - Risk Management Framework

During FY 2011 the OIG evaluated the RRB's information security program
pursuant to the provisions of the Federal Information Security Management Act
of 2002 (FISMA). OIG auditors found that weaknesses regarding the review of
contractor deliverables associated with the risk management framework continue
to be found. 2 Although agency managers are working to strengthen controls,
management action had either not been completed as of the end of the current
reporting period, or had not been in place long enough to permit evaluation.


Information Technology Security - Applications and Services

During FY 2011, the OIG also identified a material weakness regarding
information technology security application services because the RRB continues
to use an unsupported server for some major applications. Although the agency
has moved some of the servers to the virtual environment, this action does not
alleviate the problems associated with processing data in an unsupported
environment. Uncertainties exist in determining the timeframe in which this
situation will be corrected as well as the necessary resources for completion.
Recommendations for corrective action are provided in the FY 2011 FISMA audit
report. 3




1
  “Report on the Railroad Retirement Board’s Fiscal Year 2011 Financial Statements,” OIG Report
No. 12-01, November 15, 2011.
2
  “Inspection of the Railroad Retirement Board’s Agency Enterprise General Information Support
System Certification and Accreditation,” OIG Report No. 11-10, September 28, 2011.
“Inspection of the Railroad Retirement Board’s Financial Management System’s Continuous
Monitoring Program,” OIG Report No. 11-11, September 28, 2011.
“Evaluation of the Railroad Retirement Board’s Benefit and Payment Operations System Continuous
Monitoring,” OIG Report No. 11-12, September 29, 2011.
3
  “Fiscal Year 2011 Evaluation of Information Security at the Railroad Retirement Board,” OIG Report
No. 12-02, January 5, 2012.
Letter to Management                                                       Page 4
                        Memorandum on Internal Control

Internal Control Over Non-Integrated Subsystems

The RRB’s financial reporting control structure is not comprehensive with respect
to the reconciliation of the general ledger to non-integrated subsystems. The OIG
previously reported this issue as a result of its audits of the agency’s financial
statements.

The agency has taken action to address this material weakness by performing
reconciliations of the various non-integrated subsystems that support financial
accounting. Although this shows that progress is being made to address this
material weakness, the agency’s progress is not yet sufficient to ensure that all of
the reconciliations are properly designed and effective.

RRB managers are working to address this weakness.

Budgetary Reporting

The Bureau of Fiscal Operations (BFO) is responsible for preparing agency
financial statements, which includes the Statement of Budgetary Resources
(SBR). During our fiscal year 2011 audit, we found significant unexplained
variances in the September 30, 2011 SBR which resulted in the discovery of
material errors of more than $2 billion, which were corrected by BFO prior to the
publication of the statement. We also discovered a $170 million error in the
June 30, 2011 SBR, which was subsequently corrected. In addition, the OIG
identified other numerous instances of ineffective controls for budgetary
transactions. As a result of these errors, the OIG has determined that BFO’s
internal controls over budgetary reporting are insufficient to ensure that a
material misstatement would be prevented, detected and corrected on a timely
basis.

Management within the Bureau of Fiscal Operations is working to address these
weaknesses.

Recommendations

We recommend that the Bureau of Fiscal Operations:

   1. provide training for the preparation of the Statement of Budgetary
      Resources; and

   2. implement a review process for the Statement of Budgetary Resources to
      ensure the accuracy of calculations, consistency in recorded amounts, and
      effectiveness of controls.
    Letter to Management                                                                 Page 5
                            Memorandum on Internal Control

Management’s Response

The Bureau of Fiscal Operations will provide training for the preparation of the
Statement of Budgetary Resources and implement a revised process for its
review.

The full text of management’s response is presented as Appendix III to this
memorandum.


SIGNIFICANT DEFICIENCY

Railroad Audits

The agency conducts external audits of railroad employers to ensure compliance
under the Railroad Retirement and Railroad Unemployment Insurance Acts and
verifies the accuracy and timeliness of reported compensation and contributions.
Although the RRB does not have the authority to audit taxes under the Railroad
Retirement Tax Act, agency staff reviews compensation amounts on which these
payroll taxes are based. Creditable compensation paid by railroad employers
impacts Railroad Unemployment Insurance Act contributions, which finances the
railroad unemployment and sickness insurance programs. Consequently, audit
findings could impact the RRB’s trust funds, which are recorded in the agency’s
financial statements.

As a result of our review of the organizational unit that conducts the external
audits, the OIG reported that the unit lacked comprehensive policies and
procedures for conducting, reporting and documenting audits to ensure that
compensation is reported in accordance with the law. 4 A weak quality control
system, the practice of not verifying all employer information with the Internal
Revenue Service, and not issuing audit reports in a timely manner increases the
risk that railroad reporting errors could remain undetected.

Management in the Bureau of Fiscal Operations is working to address these
deficiencies.




4
 “Review of the Railroad Retirement Board’s Audit and Compliance Division,” OIG Report
No. 11-04, February 1, 2011.
Letter to Management                                                        Page 6
                         Memorandum on Internal Control

OTHER MATTERS INVOLVING INTERNAL CONTROL

During our audit, we also noted certain other matters involving the RRB’s internal
control structure and its operation. Although these matters do not rise to the
level of a material weakness or significant deficiency, either individually or in the
aggregate, they represent areas in which control weaknesses increase the risk of
error or mishandling.

Readers should be aware that the noted errors were corrected prior to the
publication of the FY 2011 Performance and Accountability Report. The errors
that were uncorrected as of September 30, 2011 were provided to agency
management on a Summary of Uncorrected Misstatements.

The details of our observations and recommendations for corrective action follow.


RRB Risks Issuing Incorrect Statement of Budgetary Resources and
Financial Statement Notes

During our audit, we found errors in the SBR, the accompanying financial
statement notes, and other documents even though they had been previously
reviewed and approved by supervisory personnel.

BFO has established numerous procedures regarding the preparation, review
and approval of financial statements, notes, and documents as contained in their
Accounting Procedures Guide. However, errors continue to occur with respect to
calculations, consistency in recorded amounts, and compliance with guidance
because the preparation and review process are not thorough. See Appendix I
for details regarding the errors identified during the audit and the BFO controls
that did not prevent them from occurring.

BFO’s ineffective review and approval process can lead to the issuance of an
incorrect SBR and financial statement notes. It also hinders the agency’s ability
to meet mandated deadlines because the errors have to be corrected by BFO
and reviewed again by the OIG.

Recommendations for corrective action for this audit finding are related to those
made for the material weakness for budgetary reporting (see page 4 of this
report). As a result, no additional recommendations will be made.
Letter to Management                                                        Page 7
                         Memorandum on Internal Control

Social Insurance Requirements

Internal controls are not sufficient to ensure that information included in the
annual Performance and Accountability Report reflects the latest changes in
guidance for social insurance.

The Statement of Federal Financial Accounting Standards No. 37, Social
Insurance: Additional Requirements for Management’s Discussion and Analysis
and Basic Financial Statements, became effective beginning in FY 2011, and
requires: (1) a new presentation for the Statement of Social Insurance, (2) a new
statement, Statement of Changes in Social Insurance Amounts, and
(3) additional data for the management discussion and analysis section of the
annual Performance and Accountability Report. Social insurance requirements
are also provided in Office of Management and Budget (OMB) Circular No.
A-136, Financial Reporting Requirements, which provides guidance for the entire
Performance and Accountability Report.

Misinterpretation of the guidance by the Bureau of the Actuary led to the creation
of a Statement of Social Insurance that did not have the necessary groupings as
required by the Statement of Federal Financial Accounting Standards No. 37 and
OMB Circular No. A-136. As a result, the presentation of the Statement of Social
Insurance required correction prior to publication in the Performance and
Accountability Report.

Recommendation

We recommend that the Bureau of the Actuary:

   3. develop and implement controls to ensure compliance with accounting
      standards and OMB requirements that impact social insurance reporting.

Management’s Response

The Bureau of the Actuary agreed to implement the recommendation.

The full text of management’s response is presented as Appendix IV to this
memorandum.
Letter to Management                                                        Page 8
                         Memorandum on Internal Control

Quality Assurance Steps and Checklists for Social Insurance

Internal controls are not sufficient to ensure that the quality assurance section,
and checklists referenced in the Actuary’s internal policies and procedures,
reflect the latest changes in guidance for social insurance reports and
documents.

The Bureau of the Actuary Policies and Procedures for Actuarial Projections
contains guidance and quality assurance checklists regarding social insurance
requirements.

Portions of the Bureau of the Actuary Policies and Procedures for Actuarial
Projections have been updated, however, due to oversight, the quality assurance
section and checklists have not been updated to include requirements for the
Statement of Changes in Social Insurance Amounts.

As a result, all necessary work steps may not be completed and potential errors
could go undetected.

Recommendations

We recommend that the Bureau of the Actuary:

   4. update the quality assurance steps and checklists in their Policies and
      Procedures for Actuarial Projections to include requirements for the
      Statement of Changes in Social Insurance Amounts; and

   5. modify their procedure for updating the Policies and Procedures for
      Actuarial Projections to include a comprehensive review of all sections
      and checklists, and ensure timely and full compliance with the new
      requirements.

Management’s Response

The Bureau of the Actuary agreed to implement the recommendations.

The full text of management’s response is presented as Appendix IV to this
memorandum.
Letter to Management                                                        Page 9
                         Memorandum on Internal Control

BFO’s Responsibility for Data Received from Other Bureaus

BFO does not always identify errors or non-compliance with applicable guidance
for data provided to them from other agency bureaus.
We also observed that the existing control framework is over-reliant on the OIG’s
annual audit of the financial statements to ensure that these documents are
accurate and comply with applicable guidance.

BFO is responsible for preparing agency financial statements and publishing the
RRB’s annual Performance and Accountability Report in accordance with OMB
Circular No. A-136 and other financial reporting requirements. Other agency
bureaus prepare portions of the report and submit them to BFO. The Bureau of
the Actuary prepares the statement of social insurance and the statement of
changes in social insurance amounts, notes, and other portions of the report that
are all provided to BFO. The Office of Programs also prepares portions of the
report that are provided to BFO, including improper payment data to which BFO
must reconcile.

BFO does not have sufficient controls in place to ensure that data provided to
them from other units is accurate, consistent with financial data provided in the
financial statements, and presented in accordance with applicable guidance.

During our audit, we identified the following errors that were not detected by
BFO: an outlay amount for improper payments was incorrect, and social
insurance data had not been prepared in accordance with applicable guidance.
Without sufficient internal controls, errors in financial statements and financial
statement related documents could go undetected.

Recommendation

We recommend that the Bureau of Fiscal Operations:

   6. develop and implement controls to ensure that documents received from
      other agency bureaus are accurate and prepared in accordance with
      applicable guidance.

Management’s Response

The Bureau of Fiscal Operations agreed to develop and implement controls for
documents received from other agency bureaus.

The full text of management’s response is presented as Appendix III to this
memorandum.
                                                                         Appendix I
                                                                            Page 10


                Errors in the Statement of Budgetary Resources
                       and the Financial Statement Notes

We identified the following budgetary related errors during the FY 2011 audit.

                                           Type of Error
Error                                   Accuracy   Compliance   Control
June 30, 2011 SBR                           X          X        Preparation and review
Permanently Not Available                                       of SBR Checklist.
overstated by $16,372                                           Annual review of
                                                                external guidance by
Temporarily Not Available                                       Senior Accountant and
understated by $16,372                                          Accounting Officer.

June 30, 2011 SBR                           X                   Adjusting journal
Obligations Incurred: Direct                                    entries and support are
overstated by $72,449                                           prepared by the BFO
                                                                Accountant and
                                                                approved by the
                                                                Accounting Officer.

June 30, 2011 Standard Form                 X                   Preparation of SF-133
(SF) -133                                                       Checklist. Review of
Change in Uncollected Customer                                  the SF-133 by the
Payments from Federal Sources                                   Accounting Officer or
overstated by $28,649                                           designee.

September 30, 2011 SBR                      X                   Adjusting journal
Adjusting journal entries (AJEs)                                entries and support are
affecting Obligation Incurred: Direct                           prepared by the BFO
understated by $1.4 million                                     Accountant and
                                                                approved by the
                                                                Accounting Officer.

March 31, 2011 SBR Workpapers               X                   Preparation and review
Unobligated Balance – brought forward                           of SBR Checklist.
Oct. 1
one account was overstated by
$23,471 and another account was
understated by $23,471

FY 2011 SF 132                              X                   Preparation, review
The transfer between funds was                                  and approval of
overstated by $1,000                                            SF-132s.
                                                                           Appendix I
                                                                              Page 11


                Errors in the Statement of Budgetary Resources
                       and the Financial Statement Notes

We identified the following errors in the financial statement notes during the
FY 2011 audit.

Financial Statement Note and                Type of Error
Description of Error                     Accuracy   Compliance   Control
Contingent Liabilities                       X                   Totals in the
Pertinent details regarding a $20                                workpapers are
million refund request had been                                  matched to the
omitted.                                                         statement and notes,
                                                                 where applicable, on
Subsequent Events                            X                   the financial statement
The decline in National Railroad                                 checklists which are
Retirement Investment Trust assets                               signed off by the
was understated by $.5 billion.                                  reviewer.

Earmarked Funds Note                         X
The note did not separately identify
$10,000 as Liabilities Due and
Payable.

Related Parties                              X
The funds transfer to the Centers for
Medicare and Medicaid Services was
overstated by $21 million.

Available Borrowing Authority, End of                   X        External guidance is
Period                                                           reviewed annually by
Although required, this note was not                             the Senior Accountant
prepared.                                                        and the Accounting
                                                                 Officer.
Adjustments to Unobligated Balance                      X
This note was prepared although it was
not required.

Terms of Borrowing Authority Used                       X
This note did not discuss financing
sources.
                                                                Appendix II
                                                                    Page 12



            Status of Prior and Current Year Recommendations

We have reviewed the implementation of recommendations resulting from prior
audits of the RRB’s financial statements. The table below presents a summary
of the status of recommendations that were pending when we issued our “Letter
to Management” dated January 25, 2011, in connection to our audit of the RRB’s
FY 2010 financial statements. The additional recommendations resulting from
our audit of the agency’s FY 2011 financial statements are also included.

                                      Report and            Current Status
                                      Recommendation                      In
Bureau                                Number           Implemented     Progress
BUREAU OF FISCAL OPERATIONS           08-01 #9                             X
                                      10-03 #2                             X
                                      10-03 #3              X
                                      10-03 #4              X
                                      11-03 #1                             X
                                      11-03 #2              X
                                      12-04 #1                             X
                                      12-04 #2                             X
                                      12-04 #6                             X

BUREAU OF ACTUARY                     09-02   #9                          X
                                      09-02   #10                         X
                                      12-04   #3                          X
                                      12-04   #4                          X
                                      12-04   #5                          X

OFFICE OF PROGRAMS                    09-02 #12                           X
                                      09-02 #13                           X

           TOTALS                                           3            13
Appendix III
     Page 13
Appendix III
     Page 14
                                                                                   Appendix IV
                                                                                       Page 15
                                                                                         FORM G-1151 (1·92)
                  UNITED STATES GOVERNMENT
                                                                       RAILROAD RETIREMENT BOARD
                  MEMORANDUM
                                                                           January 25, 2012




 TO            Diana Kruel
               Assistant Inspector General for Audit

 FROM          Frank J. Buzzi ~/A~:  ..
                                 ,..., "' -
               Chief Actuary

 SUBJECT:      Draft Letter to Management · ·
               FY 2011 Financial Statement Audit


 Thank you for the opportunity to review and comment on the subject Draft Letter to
 Management. ·

· · We agree to implement recommendations 3, 4, and 5. Our target completion date for these
   re9ommendations is July 31,2012.
